   OFFICE OF THE INSPECTOR GENERAL




           EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
FISCAL YEAR 2005 INFORMATION SECURITY
         PROGRAM AND PRACTICES


            AUDIT REPORT
             OIG-AR-04-05




                                September 27, 2005
          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

September 27,2005                                                             IG-CC-014

MEMORANDUM

TO:       THE COMMISSION

We hereby submit Audit Report No. OIG-AR-04-05, Evaluation ofthe US. International
Trade Commission's Fiscal Year 2005 Information Security Program and Practices. We
conducted an independent evaluation of the Commission's information security program
and practices to determine if the Commission: (1) implemented appropriate actions to
address recommendations made in OIG-AR-01-05 (October 6, 2004); and (2) met Federal
Information Security Management Act criteria.

The Commission made limited progress in strengthening its information technology (IT)
security program during the 2005 fiscal year (FY). The most commendable
accomplishments include:

      ~   Completing a certification and accreditation package for the Data Web Cluster;

      ~   Performing audits on several systems to evaluate security;

      ~   Separating operational duties from the duties of the system administrator of the
          travel management system; and

      ~   Eliminating the employee's Social Security number as the required user
          identification for a major application.

The Commission must however take significant further action in order to achieve
consistency with U.S. Office of Management and Budget (OMB) Circular A-130,
Appendix III Security ofFederal Automated Information Resources (February, 1996).
While the security process is a continuous cycle of evaluating, improving, and monitoring
controls of the major IT systems, the Commission had not completed many basic steps
towards achieving security over its systems. The OIG identified weaknesses in these
areas as early as 2001, but the Commission has been slow in fully implementing the
recommendations. Specifically, the Chief Information Officer (CIO) needs to define
business continuity and disaster recovery controls; strengthen security planning and
program management; enhance access controls; enhance segregation of duty controls;
enhance system software controls; enhance change controls; and strengthen controls over
background investigations.

We made 23 recommendations to improve the Commission's IT security. In addition to
the 9 open recommendations from OIG-AR-01-05 (October 6, 2004), this report makes
14 new recommendations. The Commission concurred with our findings and
recommendations.

We appreciate the courtesies and cooperation provided to   0':' auditors during this audit.

                                                           ,.      -«:..   £~;i---
                                                                Kenneth {. ~larke
                                                                Inspector General

CC:    Office Directors
       Cotton & Company LLP
